No. 21-159
In the Supreme Court of the Anited States

oe

W. CLARK APOSHIAN,
Petitioner,

 

 

v.

MERRICK GARLAND, Attorney General of the
United States, £7 AL,
Respondents.

ON PETITION For A WRIT OF CERTIORARI
To THE UNITED STATES COURT OF APPEALS
For THE TENTH CIRCUIT

 

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae States of West Virginia, Montana, and 18 Other States in Support of Petitioner
contains 4,924 words, excluding the parts of the brief that are exempt by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2021.

Lindsay S. See

Solicitor General
Counsel of Record

OFFICE OF THE

WEST VIRGINIA
ATTORNEY GENERAL
State Capitol Complex
Building 1, Room E-26
Charleston, WV 25305
lindsay.s.see@wvago.gov
(304) 558-2021
